Bellco Credit Union
Account Disclosure
Visa® Signature Cash Back Credit Card
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

0% Introductory APR for the first six months on purchases. After that, the Standard APR
will range from 11.50% to 21% based on creditworthiness.

APR for Balance Transfers

This APR will vary with the market based on the Prime Rate.
3.99% Introductory APR for the first 12 months on any balance transfers that occur within
the first 90 days of account opening. After that, the Standard APR will be 21%.

APR for Cash Advances

21%

Penalty APR

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month. We
will begin charging interest on cash advances and balance transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit Card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees
• Balance Transfer
•

Cash Advance

•

Foreign Transaction

$0 For The First Year, Then $25 Thereafter.
•
•

$0 fee on transfers made within 90 days of account opening, After that, either $10 or
4% of the amount of each balance transfer, whichever is greater (maximum fee: $75)
Either $10 or 4% of the amount of each cash advance, whichever is greater
(maximum fee $75)
Up to 1% of each transaction in U.S. dollars.

•
Penalty Fees
• Late Payment
The lesser of minimum payment due or $25.
• Returned Payment
$10.
• Over the Limit Fee
None
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your account
agreement for more details.
Expedite Delivery of Card: A fee of $45 may be charged for expedited delivery of a Card at the time of request.
Loss of Introductory APR: We may end your Introductory APR and apply the Standard APR for purchases or balance transfers if you
make a late payment.
Cash Back: 1.5% of Purchases will be paid back to the Member in the form of a (Statement Credit?). Cash Back will be paid once
monthly in increments of $25 as earned. ”Purchases” do not include balance transfers; cash advances; quasi-cash transactions such
as traveler’s checks, foreign currency, gift cards or money orders; returned merchandise; ATM transactions; any checks that access
your account; overdraft advances; earned interest; unauthorized or fraudulent charges; betting that includes lottery tickets, casino
gaming chips, off-track betting and wager; or fees of any kind, including an annual fee, if applicable. To be eligible for Cash Back,
account must be open and must be in good standing at the time of fulfillment.
Periodic Rates: After any Introductory Rate period, or if an Introductory rate does not apply to your Account, the periodic rate for
purchases will range from 0.0314% per day to 0.0576% per day which corresponds to an ANNUAL PERCENTAGE RATE ranging from
11.50% to 21%. The periodic rate for cash advances is 0.0576% per day with a corresponding annual percentage rate of 21%.
Balance transfers will be considered purchases and will have the same periodic rate and corresponding annual percentage rate as
purchases. Balance transfers will be referred to as Cash Advances for purposes of this disclosure.
Effective Date: This disclosure is effective as of April 1, 2020 and is subject to change after date listed.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

